February 13, 2009

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT:     Audit Report – Postal Vehicle Service Transportation Routes –
             Minneapolis Processing and Distribution Center
             (Report Number NL-AR-09-001)

This report presents the results of our audit of the Minneapolis, MN, Processing and
Distribution Center’s (P&DC) Postal Vehicle Service (PVS) transportation (Project
Number 08XG020NL001). Our objectives were to determine whether selected PVS
vehicle operations were effective and economical. The report is the sixth in a series of
reports responding to a request from the Postal Service’s Vice President, Network
Operations, for audit work in this area. See Appendix A for additional information about
this audit.

Conclusion

The Minneapolis P&DC could more effectively manage PVS transportation processes
and schedules. Once this occurs, we estimate the Postal Service could save more than
$9.3 million over 10 years. We also observed that PVS drivers were neither
consistently restraining mail and equipment for transportation as required, nor were they
consistently using seat belts.

Excess Workhours and Associated Cost Reductions

Minneapolis P&DC officials were not effectively managing PVS transportation
processes and schedules as evidenced by unassigned driver time, duplicate trips, and
underutilized trips. This occurred because management did not conduct schedule and
vehicle utilization reviews. We concluded that officials could remove 22,809 excess
workhours from existing PVS schedules and reduce related fuel costs and damage
claims, thereby saving about $9.3 million over a 10-year period. See Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, Western Area Operations:

1. Ensure that Minneapolis Processing and Distribution Center managers follow
   prescribed fleet management procedures for making Postal Vehicle Service
   schedules effective, including conducting schedule and vehicle utilization reviews.

2. Verify elimination of the 13,562 workhours already agreed to by local and area
   management from Postal Vehicle Service trip schedules.
Postal Vehicle Service Transportation Routes –                                                               NL-AR-09-001
 Minneapolis Processing and Distribution Center


3. Reassess the remaining 9,247 workhours and eliminate the workhours as indicated
   by the reassessment, or document the reasons for retaining the workhours.

Management’s Comments

Management indicated agreement with our findings and recommendations and stated
they are planning to conduct semiannual utilization reviews beginning March 2009, and
will conduct a follow-up review in October 2009. Management committed to using the
results of these reviews to right-size PVS operations to the “ever-changing
transportation environment.” By July 2009, management expects to implement the
remaining agreed to workhour savings. Additionally, management agreed to reassess
the 9,243 disagreed workhours, pending the outcome of the Article 32 arbitration.
Finally, management stipulated actual savings may vary from the “potential savings
identified by the OIG1” due to several factors. We have included management’s
comments in their entirety in Appendix C.

Other Matters – Restraint of Mail and Equipment

We observed mail and equipment being transported on Minneapolis P&DC PVS
transportation that was not being consistently restrained according to established safety
policies.2 Improperly restrained mail and equipment can lead to accidents, property
damage, undue liability, and unwarranted costs for the U.S. Postal Service. See
Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Western Area Operations:

4. Ensure that Minneapolis Processing and Distribution Center management issues a
   memorandum to drivers enforcing load restraint policies for Postal Vehicle Service
   trips and provides oversight of load restraint processes.

Management’s Comments

Management indicated agreement with our finding and recommendation. Management
published a memorandum to drivers in February 2009 emphasizing load restraint
policies. Additionally, management has already developed procedures to monitor and
enforce compliance with Postal Service load restraint policies.




1
  U.S. Postal Service Office of Inspector General
2
  Logistics Order LO200407, dated April 16, 2004, prescribes policies for safe loading and proper restraint during
transportation of mail to facilities. In particular, the order states, “All vehicles transporting containers and pallets must
have the load secured with two restraining devices approximately every ten (10) feet.”




                                                              2
Postal Vehicle Service Transportation Routes –                                                         NL-AR-09-001
 Minneapolis Processing and Distribution Center


Other Matters – Seat Belt Usage

We observed drivers not consistently wearing seat belts as required by Postal Service
policy.3 Federal research has found that seat belts significantly reduce the risk of fatal
or serious injury to motor vehicle operators who use them. See Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, Western Area Operations:

5. Ensure that Minneapolis Processing and Distribution Center management
   emphasizes use of seat belts by Postal Vehicle Service motor vehicle operators. At
   a minimum, management should issue a memorandum to drivers requiring their
   compliance with Postal Service policies and periodically monitor compliance.

Management’s Comments

Management indicated agreement with our finding and recommendation. On January
28, 2009, management issued a memorandum to all Minneapolis P&DC PVS drivers
emphasizing the use of seat belts. Additionally, management has already developed
procedures to monitor and enforce compliance with Postal Service seat belt policies.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the recommendations,
and the corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when management completes corrective actions. These recommendations should not
be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that they can be closed.

We will report $9,343,066 of monetary impact of funds put to better use in our
Semiannual Report to Congress. Although management did not agree with our total
monetary impact, we believe our estimates are valid based on the best data available
and given PVS operations at the facility.




3
  Handbook PO-701, Fleet Management, March 1991 (updated with Postal Bulletin revisions through March 31,
2005), Vehicle Operations and Utilization, Chapter 2, Section 245.26 states, “Any employee (except rural carriers)
operating a postal-owned, leased, or privately owned (used during official business) vehicle must use a seat belt any
time the vehicle is in motion.”




                                                          3
Postal Vehicle Service Transportation Routes –                             NL-AR-09-001
 Minneapolis Processing and Distribution Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Susan M. Brownell
    Anthony M. Pajunas
    Cynthia F. Mallonee
    Katherine S. Banks




                                                  4
Postal Vehicle Service Transportation Routes –                                          NL-AR-09-001
 Minneapolis Processing and Distribution Center


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation between
cities and major facilities and delivery transportation between local post offices and
neighborhood delivery and pickup points. Network transportation using Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles
and personnel to Postal Service network facilities, such as bulk mail centers or P&DCs
in or near metropolitan areas. PVS operations are normally conducted within 50 miles
of the162 Postal Service facilities. PVS drivers drive about 150 million miles every year.
Because PVS operations are local, they are managed at the facility level under
guidance from district, area, and headquarters transportation officials.

PVS is capital- and personnel- intensive. PVS capital assets include 2,222 cargo vans,
1,869 tractors, and 4,182 trailers. Employees service and repair these vehicles at
321 Postal Service vehicle maintenance facilities (VMFs),4 auxiliaries, and local
commercial garages nationwide. PVS currently involves about 10,000 employees,
including 8,482 uniformed drivers, 621 administrative support personnel, and 963
managers. The American Postal Workers Union (APWU) represents PVS drivers and
support personnel.




                                                                            st
                            The Minneapolis P&DC is located at 100 South 1 Street and
                                 parallels the Mississippi River. October 5, 2008.

PVS operations typically include:

      •    Transportation to and from major facilities or local post offices.
      •    Transportation to and from major commercial business mailers.



4
    A VMF Auxiliary is an extension of a VMF.




                                                       5
Postal Vehicle Service Transportation Routes –                                NL-AR-09-001
 Minneapolis Processing and Distribution Center


    •   Yard operations, defined as the movement of trailers and equipment in or around
        a facility yard.

OBJECTIVES, SCOPE, AND METHODOLOGY

The Vice President, Network Operations, requested that we audit PVS operations
nationwide. Because individual facilities control PVS operations, we localized our audit
approach. This report focuses on PVS operations at the Minneapolis P&DC in the
Postal Service’s Western Area. The objectives of our audit were to determine whether
PVS operations were effective and economical.

Using Postal Service computer-generated data and other records, we analyzed
207 Minneapolis P&DC driver schedules, identified 185,924 workhours associated with
those schedules, and evaluated individual trips and trip load volume. We conducted the
analysis to determine whether management could reduce workhours and labor costs.
We analyzed driver assignments and determined whether drivers made duplicate or
unproductive trips.

During our work, we visited the Minneapolis P&DC, other regional facilities, and local
post offices. We reviewed relevant Postal Service policies and procedures, interviewed
managers and employees, and observed and photographed operations. We evaluated
the type of mail carried, considered on time service standards, and visited major
commercial business mailers. We examined the cost of PVS operations, including the
cost of PVS personnel, fuel, and damage claims. We identified unscheduled time and
trip duplications and analyzed potential trip consolidations.




                             A PVS mail hauling vehicle begins driving up a
                             Minneapolis P&DC ramp. September 9, 2008.




                                                   6
Postal Vehicle Service Transportation Routes –                                         NL-AR-09-001
 Minneapolis Processing and Distribution Center


We conducted this performance audit from August 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on January 9, 2009, and included their
comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, we noted several data and other weaknesses that limited our work.
For example, some computer records had missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles to our
workhour and cost reduction estimates.

PRIOR AUDIT COVERAGE

At the request of the Vice President, Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS costs. As indicated by the chart below,
since March 2007, we have issued five audit reports that identified labor and other
potential savings exceeding $34.3 million. Management agreed with all of our
recommendations.

                                                                                        Monetary
                                                       Report                          Impact (in
                   Report Title                        Number     Final Report Date     millions)
  Postal Vehicle Service Transportation Routes –
                                                   NL-AR-07-003     March 30, 2007            $7.3
  Memphis Processing and Distribution Center
  Postal Vehicle Service Transportation Routes –
                                                   NL-AR-07-006   September 21, 2007           4.9
  Los Angeles Bulk Mail Center
  Postal Vehicle Service Transportation Routes –
                                                   NL-AR-07-007   September 27, 2007           4.0
  Milwaukee Processing and Distribution Center
  Postal Vehicle Service Transportation Routes –
  San Francisco Processing and Distribution        NL-AR-08-003     March 26, 2008            10.1
  Center
  Postal Vehicle Service Transportation Routes –
  Northern Virginia Processing and Distribution    NL-AR-08-006   September 25, 2008           8.0
  Center
                       Total                                                                 $34.3




                                                   7
Postal Vehicle Service Transportation Routes –                                                        NL-AR-09-001
 Minneapolis Processing and Distribution Center


                                APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Associated Cost Reductions

The Minneapolis P&DC could more effectively manage PVS transportation processes
and schedules to ensure efficiency. We found PVS schedules contained:

    •      Unassigned time when drivers were not needed for a specific trip or related
           activity.

    •      Duplicate trips.

    •      Underutilized trips that management could have consolidated.

This resulted because managers were not routinely conducting PVS schedule reviews
as required.5 In addition, given the dynamic and ever-changing transportation
environment, to maintain the effectiveness and efficiency of PVS operations, the Postal
Service requires management to perform vehicle utilization reviews at least annually to
determine vehicle need.6 According to Minneapolis P&DC management, they had not
performed this type of review.

We concluded the Minneapolis P&DC could reduce workhours by 22,809 and save
about $9.3 million over 10 years without negatively affecting service. The Postal
Service would achieve more than 90 percent of the savings through personnel workhour
reductions; however, the Postal Service would also realize fuel cost and damage claim
savings, as depicted in Table 1.

             Table 1. Potential Savings (Personnel, Fuel, and Damage Claims)

                                                                              10-Year Total
                         Fiscal Year (FY) 2009           FY 2010              (FYs 2009 to
    Cost Category          Total7 (Phased in)         (Annual) Total              2018)            Percentage
    Personnel                           $482,038              $961,696              $8,476,477              90.7
    Fuel                                  60,754                 60,226                584,314                6.3
    Damage Claims                         30,377                 29,878                282,275                3.0

     Total                              $573,169             $1,051,800             $9,343,066             100.0


5
  Handbook PO-701, Fleet Management, March 1991, Chapter 2, Section 233, requires PVS operations to perform
vehicle utilization reviews at least annually to maintain effectiveness and efficiency.
6
  Handbook PO-701, Fleet Management, March 1991, Chapter 2, Section 233.31 – 233.33, specifically requires
annual completion of Postal Service (PS) Form 4575, MVS Vehicle Survey; PS Form 4572, Tractor Log; and PS
Form 4569, Vehicle Use Plan, to maintain effectiveness and efficiency.
7
  The FY 2009 figure is conservative to allow for phase-in of workhour reductions during the year. The FY 2009 total
represents $332,435 in savings (13,562 workhours) with which management agreed and $240,734 in savings (9,237
workhours) with which management disagreed.




                                                         8
Postal Vehicle Service Transportation Routes –                                     NL-AR-09-001
 Minneapolis Processing and Distribution Center



Throughout our audit we coordinated with local transportation managers and proposed
schedule realignments to them. The managers reviewed each proposal in conjunction
with their own assessment of operational requirements, and we discussed any
differences. Although management agreed to only 13,562 of the 22,809 workhours we
identified as unnecessary, we believe the remaining 9,247 workhours could produce
savings without jeopardizing on time performance. During a December 11, 2008,
follow-up discussion with Minneapolis P&DC management, Postal Service officials
stated they would further reduce their PVS workhours using OIG recommendations as
their foundation. However, management is reluctant to commit to the schedule changes
at this time, pending the results of a local arbitration decision with the APWU. Once the
decision is resolved, management has committed to right-sizing its PVS operations.
During our January 9, 2009, exit discussions with Western Area officials and
Minneapolis P&DC management, we determined that due to the aggressive and timely
actions management took, about 70 percent of the agreed workhour reductions would
be realized in FY 2009. Achievement of savings from the remaining agreed upon
workhours would likely take longer.

Other Matters – Restraint of Mail and Equipment

During our observations of PVS vehicles being loaded and unloaded at the Minneapolis
P&DC, we found that employees were securing 34 percent of these vehicles’ loads of
rolling stock of mail and equipment with single — instead of the required double —
restraints at the ends of their loads.




                        A single restraint was used on this Minneapolis P&DC PVS
                             load of mail and equipment. November 18, 2008.




                                                   9
Postal Vehicle Service Transportation Routes –                               NL-AR-09-001
 Minneapolis Processing and Distribution Center


Improperly restrained Postal Service mail and equipment (as shown on the poster8
below) can lead to accidents, damage to property, undue liability, and unwarranted
costs for the Postal Service.




Other Matters – Seat Belt Usage

During our observations of PVS vehicles in motion, we found that 31 percent of their
drivers were not wearing seat belts. See Figure 1.

                    Figure 1. Percentage of Drivers Not Wearing Seat Belts
                                  Based on OIG Observations




8
    U.S. Postal Service Poster 173, PSN: 7690-07-00-4341, November 2004.




                                                       10
Postal Vehicle Service Transportation Routes –                                NL-AR-09-001
 Minneapolis Processing and Distribution Center



Postal Service policies require PVS drivers to wear seat belts while operating vehicles
in motion doing official business. According to the Federal Motor Carrier Safety
Administration, a large percentage of drivers involved in fatal trucking accidents were
not wearing seat belts.




                                                  11
Postal Vehicle Service Transportation Routes –             NL-AR-09-001
 Minneapolis Processing and Distribution Center


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                  12
Postal Vehicle Service Transportation Routes –         NL-AR-09-001
 Minneapolis Processing and Distribution Center




                                                  13
Postal Vehicle Service Transportation Routes –         NL-AR-09-001
 Minneapolis Processing and Distribution Center




                                                  14
Postal Vehicle Service Transportation Routes –         NL-AR-09-001
 Minneapolis Processing and Distribution Center




                                                  15
Postal Vehicle Service Transportation Routes –         NL-AR-09-001
 Minneapolis Processing and Distribution Center




                                                  16
